          U.S. Department of Energy
          Office of Inspector General
          Office of Audit Services




Audit Report

National Nuclear Security
Administration's Construction of a
Radiological/Nuclear Complex for
Homeland Security




DOE/IG-0775                  September 2007
                                            2



   •   Effectively monitored project status; and,

   •   Effectively communicated project status to senior Department of Energy and
       Homeland Security officials.

In addition, without validation, the Nevada Site Office accepted the assurance of its
contractor, Bechtel Nevada, that the project was on schedule and within budget despite
early warning signs to the contrary.

Our examination of the project further determined that management and coordination
responsibilities between the Department and Homeland Security were not clearly defined
and the project was not appropriately staffed. Specifically, the Nevada Site Office and the
Department of Homeland Security did not develop or execute a formal agreement
defining their respective management and coordination responsibilities until May 2006,
or two years after Bechtel Nevada started work on the project and three months prior to
the suspension of work.

We also found a disturbing lack of clarity as to which agency was responsible for
management and coordination of the project. This led to conflicting views on this
subject, between Nevada Site Office personnel and Department of Homeland Security
officials. Additionally, the Nevada Site Office assigned oversight responsibility for the
effort to a program office that had limited construction project experience. For example,
staff assigned by the program office had not managed capital asset construction projects
and were not certified in project management as required by Department of Energy
guidance.

At the end of our field work, the Radiological/Nuclear Countermeasures Test and
Evaluation Complex had not been completed. The Department of Homeland Security
was evaluating options for completing the Test and Evaluation Complex -- one option
under consideration was contracting the remaining work to the Army Corps of Engineers.
Nevada officials estimated that as much as $10.5 million would be needed to complete
the project.

Even if an effective fix is implemented, completion of the project will have been
significantly delayed and the cost will have substantially exceeded original estimates.
More importantly, the delay may impact the Nation's testing capability to detect nuclear
and radioactive materials in a variety of circumstances.

We concluded that experience with the Radiological/Nuclear Countermeasures Test and
Evaluation Complex project provides important "lessons learned" for managing the
Department's expanding portfolio of Work for Others projects. This is particularly true
of those with the Department of Homeland Security, which have national security
implications.

To their credit, NNSA and National Security Technologies, LLC, the current Nevada
Test Site contractor, have performed several reviews of the project since September 2006.
These reviews found project management weaknesses at the contractor level similar to
                                           3

those discussed in this report. To assist the Department in managing future Homeland
Security projects, we made a number of recommendations to ensure that responsibilities
and coordination mechanisms are agreed upon before initiating Work for Others projects,
and that appropriate expertise is assigned to such projects.

MANAGEMENT REACTION

Management agreed with the report's findings and recommendations and agreed to be
more aggressive in managing future Work for Other projects.

Attachment

cc:   Deputy Secretary
      Administrator, National Nuclear Security Administration
      Chief of Staff
      Director, Policy and Internal Controls Management, NA-66
REPORT ON NATIONAL NUCLEAR SECURITY ADMINISTRATION'S
CONSTRUCTION OF A RADIOLOGICAL/NUCLEAR COMPLEX FOR
THE DEPARTMENT OF HOMELAND SECURITY


TABLE OF
CONTENTS

    Rad/Nuc CTEC Project at the Nevada Test Site

    Details of Finding ............................................................................1

    Recommendations............................................................................4

    Comments ........................................................................................5


    Appendices

    1. Other Matters ..............................................................................6

    2. Objective, Scope, and Methodology...........................................7

    3. Prior Audit Report.......................................................................9

    4. Management Comments ...........................................................10
Rad/Nuc CTEC Project at the Nevada Test Site

Background             The Radiological/Nuclear Countermeasures Test and Evaluation
                       Complex (Rad/Nuc CTEC) is a first of a kind, Hazardous
                       Category-2 nuclear facility being constructed at the Nevada Test
                       Site for the Department of Homeland Security (Homeland
                       Security). The facility will allow Homeland Security to
                       consolidate radiological/nuclear operational test and evaluation
                       activities as well as other training and operational activities. The
                       Rad/Nuc CTEC was designated as a fast-track project for
                       construction to start prior to the completion of building design.
                       Homeland Security approved funding for the project was $33
                       million. Bechtel Nevada (Bechtel) initiated the design and
                       construction of the complex. In March 2006, the National Nuclear
                       Security Administration (NNSA) announced that effective July 1,
                       2006, National Security Technologies, LLC (NSTec), would
                       become the new contractor, thus assuming responsibility for
                       project completion.

Management of the      NNSA's Nevada Site Office (Nevada) did not effectively manage
Rad/Nuc CTEC Project   the Rad/Nuc CTEC project to ensure that it would be completed on
                       schedule and within cost limitations. Specifically, Nevada did not
                       follow project management requirements and did not adequately
                       administer the Bechtel contract.

                                              Project Management

                       Department of Energy (Department) Order 413.3 provides
                       guidance for the acquisition of capital assets and construction
                       projects. The Order establishes requirements for risk management,
                       cost and schedule baselines, and periodic reviews of project
                       performance. Our review showed, however, that Nevada did not
                       ensure that cost and schedule baselines were prepared, coordinated,
                       and used for project management; aggressively manage Rad/Nuc
                       CTEC project risk; and, effectively communicate project progress
                       with senior management.

                                             Cost and Schedule Baselines

                       Although Homeland Security approved a funding amount of
                       $33 million in July 2005, Nevada did not ensure that Bechtel
                       prepared a final approved cost and schedule baseline and an
                       integrated schedule. This cost baseline would show how much the
                       project would cost within the defined scope and allow management
                       to assess whether the project's scope could be completed within
                       available funds. In addition, Bechtel did not ensure departmental
                       schedules, such as engineering, procurement, and construction,



Page 1                                                                  Details of Finding
         were integrated in a master plan and schedule for project activities.
         The lack of integration between procurement and construction
         schedules had direct impacts on the project and its workers. For
         example, progress on the Rad/Nuc CTEC project was delayed
         three months when equipment and building materials including a
         crane, pipe fittings, and windows for the project were unavailable.
         As a result, craft workers assigned to the Rad/Nuc CTEC project
         had to be redirected to other Bechtel projects at the Nevada Test
         Site.

                                Risk Management

         Fast-track projects are at risk of costly changes since construction
         begins before a facility is completely designed. Although
         construction of the Rad/Nuc CTEC project was expedited,
         sufficient contingency funds were not allocated to the project to
         account for construction changes that occurred as the design
         matured. According to NNSA guidance, contingency for a special,
         first of a kind construction project such as the Rad/Nuc CTEC
         should be about 20-30 percent. However, in June 2005, the
         Nevada Site Office Manager approved a contingency of 16.3
         percent. The contingency amount was insufficient to compensate
         for the approximately 150 cost trends and changes made to the
         baseline by Bechtel. In fact, the contingency was depleted by
         April 2006 with only 59 percent of the project construction
         completed.

         Additionally, although a risk management plan for the project was
         developed in March 2005, which identified excessive project team
         turnover as a risk, the plan was not updated to identify and mitigate
         an increased risk associated with a change in contractors
         announced by NNSA in March 2006. Specifically, effective July
         2006, NSTec assumed responsibility for the project as a result of
         NNSA's competition of its management and operating contract for
         the Nevada Test Site. As a result of the contractor transition, the
         Rad/Nuc CTEC lost its entire contractor project management team.
         NSTec employees, with no prior project knowledge, assumed
         responsibility for the project after the contract transition.

                                Progress Reviews

         Further, Nevada made limited use of progress reviews or other
         Departmental reporting tools to monitor construction activity and
         to communicate with senior management. During Fiscal Years
         2004 through 2006, for example, the Nevada Site Office Manager
         held only four progress reviews on the Rad/Nuc CTEC project,



Page 2                                                    Details of Finding
                       instead of the quarterly meetings suggested in the Department's
                       project management guidance. Also, critical performance
                       information and monthly status reports were not entered into the
                       Department's Project Assessment and Reporting System, which is
                       used to report to senior managers whether a project is on track to
                       meet its performance baselines. These monitoring tools, if
                       effectively used, would have increased communication with senior
                       management about the status of the Rad/Nuc CTEC project's
                       activities, events, milestones, and deliverables.

                                            Contract Administration

                       As the project progressed, Nevada accepted Bechtel's assurances,
                       without validation, that the project was on schedule and within
                       budget despite early warning signs to the contrary. For example,
                       the Earned Value Management System used by Nevada and
                       Bechtel, identified cost and schedule performance indicators;
                       however, both entities ignored key warning signs indicating
                       potential schedule and cost overruns. Nevada accepted Bechtel's
                       assurances that the project was still on track without validating
                       Bechtel's explanations for low performance indicators. Starting in
                       January 2006, cost and schedule indicators continually decreased
                       below the desired measurement levels. Although Bechtel reported
                       these low performance indicators, it assured Nevada that delays
                       would not affect the overall schedule or budget because the delays
                       were not on the critical path. Nevada accepted Bechtel's
                       explanation and did not request additional information to
                       determine how these delays would be overcome. However, we
                       found that some of the delays such as the previously mentioned
                       crane, which was delayed for more than three months, were
                       essential to completing the project and were symptomatic of larger
                       problems such as the lack of an integrated master plan.

Responsibilities and   The project was not effectively managed because management and
Assignments            coordination responsibilities were not clearly defined. Specifically,
                       Nevada and Homeland Security did not have a formal agreement
                       defining their respective management and coordination
                       responsibilities until May 2006, or 28 months after Bechtel started
                       work on the project. For example, there was no agreement between
                       Nevada and Homeland Security regarding how cost estimate
                       increases would be handled; that is, whether Homeland Security
                       would increase funding or reduce project scope. Without such an
                       agreement, cost increases were absorbed by contingency until the
                       funds were exhausted. Further, without an agreement, coordination
                       and communication problems occurred. Several Homeland




Page 3                                                                  Details of Finding
                  Security officials, for example, told us that they were not provided
                  enough detail about the project status and were unaware until July
                  2006, that available funds were not adequate to complete work.

                  We also found conflicting views among Nevada personnel and
                  Homeland Security officials about which agency was responsible
                  for management and coordination of the project. A Nevada
                  official, for example, told us that Homeland Security was
                  responsible for management of the project; however, Homeland
                  Security officials told us that Nevada prohibited them from directly
                  contacting Bechtel to discuss project status.

                  Additionally, Nevada assigned oversight responsibility for the
                  project to a program office that had limited construction project
                  experience. For example, staff assigned to the project had not
                  previously managed construction projects under Department Order
                  413.3. The staff assigned to the project also was not certified in
                  project management as required by Department guidance. In
                  addition, a Nevada official told us that staffing resources were not
                  adequate to review contractor performance on Work for Others
                  projects.

Project Impact    As of February 2007, Nevada and NSTec estimated an additional
                  ten months and approximately $7.4-10.5 million were needed to
                  complete the project. Homeland Security officials, at the time of
                  our review, were considering several options including de-scoping
                  the project or contracting the remaining work to the Army Corps of
                  Engineers under a fixed price contract.

                  Inadequate project management and contract administration
                  resulted in additional costs to the government and delays in the
                  completion of the Rad/Nuc CTEC project. As a result, Homeland
                  Security's testing capability to detect radiological and nuclear
                  materials that could move across and through our borders, tunnels,
                  bridges and toll plazas has been reduced. Also, Homeland
                  Security's consolidation of its radiological/nuclear operational test
                  and evaluation activities, and other training and operational
                  activities will be delayed.


RECOMMENDATIONS   We recommend that the Administrator, NNSA:

                     1. Establish, prior to initiating Work for Others projects,
                        Memorandums of Agreement that at a minimum specify
                        responsibilities for:

                             a. Monitoring contract performance,


Page 4                                                            Recommendations
                        b. Approving project baselines and baseline changes to
                           cost, scope and schedule; and,

                        c. Communicating project status to senior Department
                           and customer management.

                2. Ensure that construction projects, including Work for
                   Others efforts, are managed by Department offices with
                   appropriate experience, including certified project
                   directors.


MANAGEMENT   NNSA management agreed with our report findings and
COMMENTS     recommendations related to Work for Others issues, particularly as
             it relates to Homeland Security. Specifically, management stated
             they would review Work for Others processes and procedures and
             appropriately establish roles and responsibilities in future
             agreements. In addition, NNSA intends to provide updated
             guidance to the site offices on conducting Work for Others
             projects.

             Management comments are included in its entirety in Appendix 4.


AUDITOR      Management's comments were responsive to our
COMMENTS     recommendations.




Page 5                                                             Comments
Appendix 1


                                     OTHER MATTERS


During our review, we found that the Nevada Site Office (Nevada) decided to reduce Bechtel
Nevada's (Bechtel) facility operations award fee by $686,995 due to deficiencies in its oversight
of the Radiological/Nuclear Countermeasures Test and Evaluation Complex (Rad/Nuc CTEC)
project. The award fee reduction decreased the amount of fees paid to the contractor by Nevada
for managing and operating the Nevada Test Site. However, Nevada did not reduce the fixed fee
of $1.2 million paid to Bechtel for the Rad/Nuc CTEC project. This fee was paid by the
Department of Homeland Security (Homeland Security). Since Bechtel's poor performance
directly impacted the Rad/Nuc CTEC project, it may also have been more appropriate to reduce
the amount of fixed fee paid by Homeland Security. In response, Nevada officials told us that
they believed the National Nuclear Security Administration's (NNSA) Work for Others policy
required the payment of a fixed fee and precluded a fee reduction. We noted, however, that the
Department of Energy regulations included in the Bechtel contract state that "fees, including
fixed fees, may be reduced when performance deliverables are not met." Accordingly, we
suggest that NNSA ensure that all sites understand its Work for Others policy, especially
regarding reductions in fixed fees paid to contractors who have not performed as expected.




Page 6                                                                            Other Matters
Appendix 2

OBJECTIVE     Our objective was to determine if the Nevada Site Office (Nevada)
              effectively managed the Radiological/Nuclear Countermeasures
              Test and Evaluation Complex project.


SCOPE         The audit was performed between September 2006 and July 2007,
              at the Nevada Site Office and National Security Technologies,
              LLC in Las Vegas, Nevada. The scope was limited to the activities
              associated with Department of Homeland Security (Homeland
              Security) sponsored work from October 2005 through September
              2006.


METHODOLOGY   To accomplish the objective, we:

                 •   Reviewed applicable Federal and Departmental regulations,
                     Departmental Orders, internal policies and procedures, and
                     Homeland Security project documents;

                 •   Reviewed prior audits and reviews from the Office of
                     Inspector General, Government Accountability Office,
                     National Nuclear Security Administration (NNSA) and
                     contractors;

                 •   Analyzed Nevada and contractor compliance with
                     Departmental Orders for the acquisition of capital assets,
                     including their administration, monitoring, project reviews,
                     scheduling, risk management and trending practices;

                 •   Assessed compliance with the Government Performance
                     and Results Act of 1993; and,

                 •   Interviewed appropriate NNSA, Homeland Security, and
                     contractor personnel.

              The audit was conducted in accordance with generally accepted
              government auditing standards for performance audits and
              included limited tests of internal controls and compliance with
              laws and regulations to the extent necessary to satisfy the audit
              objective. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may
              have existed at the time of our audit. We relied on computer
              processed data to accomplish our audit objective and performed
              limited testing on the data we used to satisfy the audit objective.
              NNSA established performance measures under the Government
              Performance and Results Act of 1993. While there were no


Page 7                                    Objective, Scope, and Methodology
Appendix 2 (continued)

                    specific performance measures related to Work for Others,
                    performance in this area was assessed under the contractor's
                    general management performance. NNSA waived an exit
                    conference.




Page 8                                          Objective, Scope, and Methodology
Appendix 3


                             PRIOR AUDIT REPORT


  •   Nuclear Detection Devices (DOE/IG-0720, February 2006). The Department of
      Energy (Department) had not developed procedures that detailed how research
      being conducted by the national laboratories for the Department of Homeland
      Security (Homeland Security) should be coordinated with parallel or similar
      research sponsored by the Department. In addition, the Department had not
      developed procedures nor required reporting Homeland Security funded research
      to Headquarters or any other central entity. As a result, neither the Department
      nor Homeland Security had a complete inventory of research being conducted at
      the national laboratories. The Office of Inspector General recommended that the
      Department establish formal procedures to coordinate radiation detection research
      being conducted by the national laboratories, regardless of the funding source.




Page 9                                                             Prior Audit Report
Appendix 4




Page 10      Management Comments
                                                             IG Report No. DOE/IG-0775

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
